                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-21                                   Office of Inspections                                       July 2014




                              Review of
                      Remote Voucher Processing




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Findings                                                                               1
Context                                                                                    2
Progress to Cut Costs Through Remote Voucher Processing Has Been Slow                      4
Centralized Governance Is Lacking                                                          6
  Office of Management Policy, Rightsizing, and Innovation Encouraged, but Did Not
       Mandate, Post Support Unit Use for Cost Cutting                                     6
  Regional Bureaus Encourage, but Do Not Mandate, Post Support Unit Use or Cost Cutting    6
  Sources of Resistance                                                                    7
Recommendations                                                                            9
  Enforce PSU Use at the Highest Cost Embassies                                            9
  Enforce Voucher Examiner Cuts                                                            9
  Examine Voucher Documentation Regulations                                               10
  Continue Tracking Embassies’ Voucher Processing Costs                                   11
List of Recommendations                                                                   12
Principal Officials                                                                       13
Abbreviations                                                                             14
Appendix A: OIG Reports Covering Remote Voucher Processing                                15
Appendix B: Voucher Processing Costs and Post Support Unit Use                            20
Appendix C: Estimated Savings Through 50-Percent Post Support Unit Use at the Highest
       Cost Embassies                                                                     21
Appendix D: Voucher Processing Costs and Post Support Unit Adoption Rates for All
       Large and Medium-Sized Embassies                                                   22




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
•   The Department of State could save millions in funding dollars annually if it performed
    voucher processing functions remotely from low-cost locations, rather than from embassies
    in higher cost locations. Vouchering costs at large and medium-sized embassies totaled
    $32 million in FY 2013.

•   If embassies with the highest voucher processing costs processed 50 percent of their
    vouchers remotely, those embassies could save an estimated $4.3 million annually.

•   The Department of State processes vouchers for itself as well as other agencies, meaning that
    forgone cost savings are borne both by the Department of State and other agencies. The
    Department of State pays 68 percent of worldwide voucher processing costs; other agencies
    pay 32 percent.

•   Resistance to processing vouchers remotely stems from bureaus’ and embassies’ reluctance
    to reduce embassy-based voucher examiner positions and associated funding. Only
    13 percent of embassy-funded vouchers were processed remotely in 2013.

•   Remote voucher processing can also improve internal controls through consistency.

•   The Under Secretary for Management left voucher processing decisions related to embassy-
    funded vouchers up to the Office of Management Policy, Rightsizing, and Innovation; the
    regional bureaus; and the embassies.

•   The OIG team recommends that the Under Secretary for Management mandate remote
    voucher processing at high-cost embassies and develop a transition plan for doing so. The
    team also recommends that the Under Secretary for Management reduce funding and staffing
    for embassy-based voucher processing units after they transition to put Department of State
    and other agency funds to better use. Finally, the OIG team recommends that the Department
    of State continue to track embassies’ remote voucher processing costs to identify additional
    cost-saving opportunities.


All findings and recommendations in this report are based on conditions observed during
previous inspections and conditions during the on-site review and the standards and policies then
in effect.

The review took place in Washington, DC, between January 24 and March 14, 2014. Kristene
McMinn (team leader), Alison Barkley (deputy team leader), and Rick Jones conducted the
review.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Context
        Before 2006, embassy-based voucher examiners and certifying officers reviewed,
certified, and processed all overseas vouchers. Vouchers contain supporting documentation
needed to make embassy payments, such as reimbursing employees for travel expenses, paying
landlords for embassy staff housing, purchasing office supplies, and paying embassy contractors
or grantees.

        The Department of State (Department) established remote voucher processing units in
2006 in South Carolina and Thailand to review, certify, and process vouchers from an off-site
location. 1 Some vouchers are easier to process remotely than others. Travel vouchers, for
example, are easy because the Department already mandates electronic storage of all supporting
documentation in E2 Solutions (E2), a Web-based system. Other vouchers, such as those to
support credit card payments, are more time consuming, because electronic storage of the
supporting documentation is not required and financial management staff must scan those
documents.

        The remote voucher processing unit proved cost effective. In 2007, it reported that it
could process vouchers for about half the cost of embassy-processed vouchers. The unit, now
called the Bureau of the Comptroller and Global Financial Services’ Post Support Unit (PSU),
currently charges embassies $12 per voucher, 2 although the average cost per embassy-processed
voucher is $26.02. The PSU reports that it is able to keep voucher processing costs low by
operating in locations with low labor costs, including Thailand, Bulgaria, South Carolina, and
soon the Philippines. Repetitive processing enhances efficiency and internal controls.

        Remote voucher processing is a recognized means of cutting costs. In response to
pressure from other agencies to reduce the administrative costs associated with overseas
positions, the Department identified remote voucher processing as one of its top eight cost-
cutting initiatives. 3 (Embassy-funded voucher processing costs are borne by the Department and
other agencies.) In 2011, in response to budgetary pressures, the Secretary of State tasked
embassies with assessing ways to reduce costs, including “making more effective use of the
financial management PSU.” 4 Embassies that use the PSU can reduce the time voucher
examiners and American certifying officers devote to that function. Embassies may also be able
to eliminate voucher examiner and certifying officer positions. Both changes reduce embassies’
voucher processing costs.

       The Office of Inspector General (OIG) has identified many opportunities to cut costs
through PSU use, as shown in Appendix A. OIG previously recommended that 16 embassies use
or consider using the PSU. In 2012, OIG conducted a survey of remote voucher processing and

1
  The unit was originally established so Embassy Baghdad’s vouchers could be processed from a safe location and
the number of employees at Embassy Baghdad could be kept to a minimum. In 2007, the unit expanded and offered
its services to embassies worldwide.
2
  For the purposes of this report, when OIG refers to “vouchers,” it actually refers to “strip codes” of funding. PSU
charges by strip code, and embassy cost figures are by strip code. More than one strip code can reside on a voucher.
The PSU informed OIG that it may have to increase its charge to $12.50 per voucher, given cost of living increases.
3
  The top eight management initiatives were established by a working group chaired by the Office of Management
Policy, Rightsizing, and Innovation. Its members include all regional bureau executive directors.
4
  Department cable State 038907.
                                             2
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

found PSU use was voluntary for embassies, despite the potential for cost savings and improved
internal controls. OIG recommended that the Under Secretary for Management require embassies
to consider PSU use as a part of their annual workforce planning efforts, given the potential to
reduce embassy-based positions in high-cost locations through PSU use.




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Progress to Cut Costs Through Remote Voucher Processing
Has Been Slow
       Despite other agency pressure and OIG recommendations to cut costs through PSU use,
progress has been slow. Only 13 percent of embassy-funded vouchers at large and medium-sized
missions 5 were processed remotely in 2013. 6

       Even at embassies with the highest voucher processing unit costs, PSU use is low. As
shown in the table below, at the 10 embassies with the highest voucher processing unit costs,
only 8 percent of vouchers were processed by the PSU. At Embassy Bern, for example, the cost
per voucher was $67.37, and the embassy did not process any vouchers remotely in 2013.

                   PSU Use at Embassies with the Highest Unit Costs
         Embassy    Embassy Cost per      PSU Charge      Percentage of Vouchers
                                7                     8
                       Voucher           per Voucher       Processed Remotely 9
      Paris              $71.40                $12                  23%
      Bern               $67.37                $12                   0%
      Kuwait             $57.59                $12                  12%
      Tokyo              $54.41                $12                   5%
      Abuja              $49.40                $12                   0%
      Brussels           $46.46                $12                  11%
      Rome               $45.78                $12                   0%
      Brasilia           $44.50                $12                   8%
      Nassau             $44.43                $12                   0%
      Conakry            $41.77                $12                   0%
      Weighted Average                                               8%




5
  For the purposes of this report, when OIG refers to “large and medium-sized” embassies, it refers to embassies that
track costs using International Cooperative Administrative Support Services (ICASS) “Standard” software, which
tracks administrative workload in greater detail than the “Lite” software used at small posts. Embassies using the
“Lite” software are not addressed because voucher processing costs are not separated from other financial-related
costs. Embassies Baghdad and Kabul also use the “Lite” software.
6
  Projected PSU use for 2014 shows a marginal increase from 13.06 percent to 13.61 percent. The 13.06 figure could
be understated by an estimated 1.48 percent because the OIG team did not attempt to remove cashiering vouchers
from its analysis. Cashiering vouchers cannot be processed remotely.
7
  Embassy costs per voucher are taken from the Department’s ICASS Global Database Report #5 – Unit Cost by
Post 2013 Final. This database is used to charge other agencies for vouchering services. Appendix D lists all large
and medium-sized missions’ cost per voucher.
8
  PSU-generated documents state that the $12 charge covers PSU’s voucher processing operating costs. The costs
for standing up operations in the Philippines were still being determined at the time of this review.
9
  The OIG team calculated the percentage of PSU use by dividing the number of vouchers processed by PSU in
2013 by the total number of vouchers processed in 2013, according to the ICASS Service Center. Although the total
vouchers processed does include cash vouchers that cannot be processed by PSU, cash payments and vouchers are
discouraged at high-cost embassies and should represent less than 1 percent of vouchers.
                                             4
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Similar statistics apply to embassies with the highest total number of vouchers processed.
At the 20 embassies with the highest voucher processing costs overall, 10 only 13 percent of
vouchers were processed remotely in 2013.

       The OIG team estimates that if these 20 embassies processed 50 percent of their vouchers
remotely, they could save $4.3 million annually. Potential savings for a few embassies are shown
below. Appendix C has a more complete list.

               •    Embassy Tokyo $412,182             •    Embassy Brussels $297,958
               •    Embassy Brasilia $343,736          •    Embassy Berlin $293,632
               •    Embassy Paris    $321,146          •    Embassy Rome $285,103




10
  The OIG team excluded Embassy Mexico City from the top 20 because that embassy’s cost is lower than PSU’s
charge.
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Centralized Governance Is Lacking
        The Department’s central and regional efforts to cut embassy costs through PSU use have
been ineffective. The Under Secretary for Management, responsible for allocating resources and
establishing management policies, left PSU use for embassy-funded vouchers up to the Office of
Management Policy, Rightsizing, and Innovation (M/PRI); the regional bureaus; and the
embassies. 11

Office of Management Policy, Rightsizing, and Innovation Encouraged, but Did Not
Mandate, Post Support Unit Use for Cost Cutting

        M/PRI, responsible for leading the Department’s “regionalization/standardization
activities” and “identifying potential efficiencies through…regionalization,” encouraged PSU
use but did not mandate it. Although M/PRI started tracking PSU use by embassy in 2012 and set
a goal of 33-percent PSU use for nontravel vouchers, 12 it discontinued these tracking efforts in
2013. The office could not tell the OIG team whether any savings had resulted or whether the
Department was on track to meet its 33-percent goal. M/PRI chairs the working group
responsible for the Department’s top eight cost-cutting initiatives. Other agency representatives
complained about the lack of progress in cutting costs and said no meaningful metrics were
related to PSU adoption rates, costs per voucher, or the number of voucher examiners at
embassies.

        The Department’s rightsizing reviews, another centralized means of encouraging cost
cutting through PSU use, do not consistently address PSU use. M/PRI conducts rightsizing
reviews of all embassies to determine the minimum staff needed to meet foreign policy goals. In
response to OIG’s 2012 remote voucher processing survey, OIG was informed that M/PRI’s
rightsizing reports addressed the number of voucher examiner positions related to potential PSU
use. However, the rightsizing reports do not consistently do so. 13 For example, the 2012 and
2013 rightsizing reports for Embassy Rome did not recommend reducing the number of voucher
examiners, though the OIG team estimates 50-percent PSU use and an accompanying reduction
of embassy Rome positions could result in $285,103 in savings annually. Embassy Berlin’s 2013
rightsizing review also did not address remote voucher processing. On the other hand, the 2013
Embassy Paris rightsizing report recommended eliminating two voucher examiner positions.

Regional Bureaus Encourage, but Do Not Mandate, Post Support Unit Use or Cost Cutting

       Regional bureau efforts to cut costs through PSU use varied, but no regional bureau
enforced cost-cutting measures. Appendix B shows PSU use by bureau and the average unit
costs by bureau.


11
   The Under Secretary for Management did mandate PSU use for Permanent Change of Station vouchers that are
funded domestically by the Bureau of Human Resources and apply only to Department employees. The OIG team
limited its review to embassy-funded vouchers, the costs of which are borne both by the Department and other
agencies through ICASS funding.
12
   By the end of 2014.
13
   The Under Secretary for Management also told the OIG team that M/PRI would address PSU use in its rightsizing
review instructions; however, the instructions do not address PSU use.
                                            6
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The Bureau of European and Eurasian Affairs (EUR), which has the highest voucher
processing costs worldwide, publicized a number of mandates but did not strictly enforce those
mandates. For example, EUR mandated PSU use for all E2 travel vouchers, prohibited embassies
from creating new or replacing vacant voucher examiner positions without approval, and
mandated that embassies outsource all vouchers to the PSU to the fullest extent possible. 14
However, not all embassies use the PSU for E2 vouchers, EUR staff could not tell the OIG team
whether any new voucher examiners had been hired over the past 3 years, and EUR did not force
the costliest embassies to use the PSU. Additionally, EUR could not demonstrate that PSU use
had generated any savings. 15

       The Bureaus of Near Eastern Affairs and South and Central Asian Affairs led all bureaus
in PSU use with 22 percent and 20 percent, respectively, but did not enforce PSU use mandates.
Embassies in those bureaus used the PSU primarily to reduce the number of personnel located at
dangerous embassies. Those bureaus also mandated PSU use for all E2 travel vouchers,
encouraged embassies to use the PSU, set embassy targets of 30-percent PSU use, required
embassies to justify reductions in PSU use, and prohibited embassies from creating voucher
examiner positions or filling vacant positions without approval. 16 However, the bureaus did not
enforce those instructions and informed the OIG team that the level of PSU use was an embassy
decision. (Those bureaus share an executive office.)

       The other regional bureaus issued informal guidance that embassies consider PSU use,
but those bureaus did not mandate PSU use or require embassies to seek approval for voucher
examiner hiring.

Sources of Resistance

      The primary source of resistance to PSU use is embassies’ fear of losing positions and
voucher examiners’ fear of losing their jobs.

        Other sources of resistance come from embassy staff members who claim PSU use would
not reduce their workload because they would still have to gather, review, and scan supporting
documentation. The OIG team notes, however, that embassies that maintain documentation
electronically in the Department’s approved Web-based procurement system (Integrated
Logistics Management System) do not have to handle supporting documentation for
procurements because the PSU can access supporting documentation in that system. Some
voucher types do not have mandated electronic storage systems and still require a certain amount
of manual scanning.

       Some embassy staff members were concerned that PSU use would increase voucher
processing times. In interviews, the OIG team was told that delays most often occur when
information sent to the PSU is incomplete. Some missions have had to change their processes
and standards in order to use the PSU. One of the benefits of PSU use is consistent application of

14
   Department cables 11 State 6843, 11 State 123236, and 12 State 117995.
15
   EUR did show the OIG team a document suggesting that PSU use could save EUR an estimated $6.9 million and
that it had already saved $1.5 million and 26 positions. However, EUR could not demonstrate how the $1.5 million
in savings was achieved, such as providing a list of abolished voucher examiner positions. By policy, EUR allows
missions to use saved ICASS funds for other administrative functions.
16
   Department cable 13 State 7698.
                                            7
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

the regulations. PSU’s operations are ISO-9000 17 certified, and PSU monitors and publicizes its
adherence to established quality standards. The PSU usually meets its timeliness and customer
satisfaction standards.

       Several interviewed staff members told the OIG team that the Department is reluctant to
reduce embassy staffing, even those employees who are performing administrative functions.
The team was told that, “reducing embassy-based positions is not the culture of the Department.”




17
  The International Standards Organization, based in Geneva, writes standards on various subjects. Its ISO-9000
series of standards constitute guidelines for a quality management system.
                                            8
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Recommendations
Enforce PSU Use at the Highest Cost Embassies

        The Department has not mandated or prioritized PSU use on the basis of potential cost
savings. PSU’s growth related to embassy-funded vouchers has been embassy driven and
dependent on the amount of work requested. The Under Secretary for Management is responsible
for the Department’s management policies, 18 putting that office in the best position to mandate
PSU use at the 20 embassies with the highest potential cost savings. The PSU will have to
expand its capacity 19 and reprioritize planned voucher processing requests 20 to accommodate the
additional workload. The PSU may also consider contracting some of the workload to an outside
firm, though not the certifying function that is inherently governmental. Travel and leasing
vouchers are the easiest to process remotely and could serve as a starting point.

Recommendation 1: The Under Secretary for Management should mandate that the 20
embassies with the highest potential cost savings through Post Support Unit use increase the
percentage of vouchers they process remotely to 50 percent by the end of 2016 to allow for
$4.3 million in savings annually. (Action: M/PRI)

Enforce Voucher Examiner Cuts

        Cost savings through PSU use can only be realized if embassy-based voucher examiners
and American certifying officers in high-cost locations devote less time to that function. In many
embassies, especially large ones, PSU use could allow voucher examiner positions in high-cost
locations to be eliminated. PSU staff at lower cost locations would replace those examiners.

         Neither M/PRI nor the regional bureaus have tracked the number of voucher examiners
and American certifying officers devoted to voucher processing or voucher examiner hiring. 21
Embassies with the highest voucher examination costs also often have the highest severance
costs, arguing for position reductions through attrition. Three regional bureaus did prohibit
creating new voucher examiner positions without special authorization; however, none has
strictly enforced the prohibition and none could tell the OIG team definitively whether it had
ever disapproved an embassy’s request to hire a voucher examiner. Neither the regional bureaus
nor M/PRI nor the Bureau of Human Resources could tell the OIG team whether any voucher
examiners had been hired over the past 3 years. No office in the Department has required
embassies to submit workforce plans associated with potential position reductions possible
through PSU use.



18
   The Under Secretary also oversees the National Security Decision Directive 38 process and the Bureau of Budget
and Planning, which compiles the Department’s budget request and distributes appropriated funding to each regional
bureau.
19
   The OIG team estimates the PSU will have to expand its workforce by about one-third.
20
   The OIG team recognizes that workload from high-threat locations should remain a priority.
21
   The OIG team did find data from the ICASS Service Center that suggested progress in reducing the amount of
time voucher examiners in EUR devoted to voucher processing. However, over that same timeframe, the amount of
time American certifying officers in EUR devoted to voucher processing increased.
                                            9
                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        Regional bureaus did not expect embassies to eliminate positions or reduce their budgets
on the basis of savings generated from PSU use. Embassies could keep the voucher examiners or
move them into other administrative 22 functions. Personnel reduction at high-cost missions is the
key to substantial cost savings from PSU use. The Under Secretary for Management also has not
considered moving funding from bureaus where the greatest savings could or should have been
generated.

Recommendation 2: The Under Secretary for Management, in coordination with the Bureau of
African Affairs, the Bureau of East Asian and Pacific Affairs, the Bureau of European and
Eurasian Affairs, the Bureau of Near Eastern Affairs, the Bureau of South and Central Asian
Affairs, and the Bureau of Western Hemisphere Affairs, should track and enforce a prohibition
on voucher examiner hiring at the 20 embassies with the highest potential cost savings until Post
Support Unit use reaches at least 50 percent. (Action: M/PRI, in coordination with AF, EAP,
EUR, NEA, SCA and WHA)

Recommendation 3: The Under Secretary for Management, in coordination with the Bureau of
African Affairs, the Bureau of East Asian and Pacific Affairs, the Bureau of European and
Eurasian Affairs, the Bureau of Near Eastern Affairs, the Bureau of South and Central Asian
Affairs, the Bureau of Western Hemisphere Affairs, and the Bureau of the Comptroller and
Global Financial Services, should develop a transition plan for transferring voucher processing at
embassies with the highest potential cost savings to the Post Support Unit by 2015 and
eliminating voucher examiner positions at the high-cost embassies. (Action: M/PRI, in
coordination with AF, EAP, EUR, NEA, SCA, WHA, and CGFS)

        Workforce planning at all embassies will enable a longer term strategic approach to
voucher processing, even at those embassies not included among the 20 with the highest
potential cost savings.

Recommendation 4: The Under Secretary for Management, in coordination with the Bureau of
African Affairs, the Bureau of East Asian and Pacific Affairs, the Bureau of European and
Eurasian Affairs, the Bureau of Near Eastern Affairs, the Bureau of South and Central Asian
Affairs, and the Bureau of Western Hemisphere Affairs, should require every embassy to submit
a financial management section workforce planning document by December 2014, detailing the
person hours currently spent on voucher examining and how remote voucher processing would
affect the number of voucher examiner positions. (Action: M/PRI, in coordination with AF,
EAP, EUR, NEA, SCA and WHA)

Examine Voucher Documentation Regulations

        A few outdated regulations apply to remote voucher processing. For example, 4 Foreign
Affairs Handbook (FAH)-3 H-422.6-8 and 4 FAH-3 H-423.4-1 and 2 imply that original hard-
copy purchase orders and invoices must support all voucher payments. These regulations were
last updated in 1995. The PSU is certifying vouchers based on electronic copies and received a
waiver to the above regulations to process vouchers using electronic supporting documentation.



22
     Other functions funded through ICASS.
                                             10
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 5: The Bureau of the Comptroller and Global Financial Services should
determine whether the hard-copy purchase order and invoice requirement is still valid and update
relevant sections of the Foreign Affairs Manual and Foreign Affairs Handbook. (Action: CGFS)

Continue Tracking Embassies’ Voucher Processing Costs

        Department officials recently decided to stop tracking embassies’ voucher processing
costs. In a planned software upgrade, those costs will be rolled into general financial
management costs, making it difficult, if not impossible, to assess the cost and efficiency of
embassies’ voucher processing operations.

Recommendation 6: The Under Secretary for Management should continue tracking embassies’
voucher processing costs to identify cost-saving opportunities. (Action: M/PRI)




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Under Secretary for Management should mandate that the 20
embassies with the highest potential cost savings through Post Support Unit use increase the
percentage of vouchers they process remotely to 50 percent by the end of 2016 to allow for $4.3
million in savings annually. (Action: M/PRI)

Recommendation 2: The Under Secretary for Management, in coordination with the Bureau
of African Affairs, the Bureau of East Asian and Pacific Affairs, the Bureau of European and
Eurasian Affairs, the Bureau of Near Eastern Affairs, the Bureau of South and Central Asian
Affairs, and the Bureau of Western Hemisphere Affairs, should track and enforce a prohibition
on voucher examiner hiring at the 20 embassies with the highest potential cost savings until Post
Support Unit use reaches at least 50 percent. (Action: M/PRI, in coordination with AF, EAP,
EUR, NEA, SCA and WHA)

Recommendation 3: The Under Secretary for Management, in coordination with the Bureau
of African Affairs, the Bureau of East Asian and Pacific Affairs, the Bureau of European and
Eurasian Affairs, the Bureau of Near Eastern Affairs, the Bureau of South and Central Asian
Affairs, the Bureau of Western Hemisphere Affairs, and the Bureau of the Comptroller and
Global Financial Services, should develop a transition plan for transferring voucher processing at
embassies with the highest potential cost savings to the Post Support Unit by 2015 and
eliminating voucher examiner positions at the high-cost embassies. (Action: M/PRI, in
coordination with AF, EAP, EUR, NEA, SCA, WHA, and CGFS)

Recommendation 4: The Under Secretary for Management, in coordination with the Bureau
of African Affairs, the Bureau of East Asian and Pacific Affairs, the Bureau of European and
Eurasian Affairs, the Bureau of Near Eastern Affairs, the Bureau of South and Central Asian
Affairs, and the Bureau of Western Hemisphere Affairs, should require every embassy to submit
a financial management section workforce planning document by December 2014, detailing the
person hours currently spent on voucher examining and how remote voucher processing would
affect the number of voucher examiner positions. (Action: M/PRI, in coordination with AF,
EAP, EUR, NEA, SCA and WHA)

Recommendation 5: The Bureau of the Comptroller and Global Financial Services should
determine whether the hard-copy purchase order and invoice requirement is still valid and update
relevant sections of the Foreign Affairs Manual and Foreign Affairs Handbook. (Action: CGFS)

Recommendation 6: The Under Secretary for Management should continue tracking
embassies’ voucher processing costs to identify cost-saving opportunities. (Action: M/PRI)




                                       12
                           SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                                 Name   Arrival Date

Under Secretary for Management                                      Patrick Kennedy         11/2007
Chief, Office of Management Policy,
   Rightsizing, and Innovation                                       Alaina Teplitz         10/2012
Comptroller                                                        James Millette23         08/2002
Director, Post Support Unit                                       Darcy Mercadante          08/2011
Director, ICASS Service Center                                    Richard Boohaker          09/2012
Regional Bureau Executive Directors
   Bureau of African Affairs                                        Paul Folmsbee           08/2012
   Bureau of East Asian and Pacific Affairs                        Jennifer Bonner          08/2013
   Bureau of European and Eurasian Affairs                        Margaret Uyehara          08/2012
   Bureau of Near Eastern Affairs/ Bureau
     of South and Central Asian Affairs                                Lee Lohman           08/2011
   Bureau of Western Hemisphere Affairs                        Christopher Lambert          06/2012




23
     Jim Millette left this position after fieldwork for this review was completed.
                                                13
                                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
Department       U.S. Department of State

E2               E2 Solutions

EUR              Bureau of European and Eurasian Affairs

FAH              Foreign Affairs Handbook

ICASS            International Cooperative Administrative Support Services

M/PRI            Office of Management Policy, Rightsizing, and Innovation

OIG              Office of the Inspector General

PSU              Bureau of the Comptroller and Global Financial Services’ Post
                 Support Unit




                            14
                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Appendix A: OIG Reports Covering Remote Voucher
Processing
Inspection of Embassy Budapest, Hungary (ISP-I-14-03A, March 2014)
The embassy sends travel vouchers to the Post Support Unit, but not other types of vouchers.
Doing so would allow the embassy to reprogram a voucher examiner position to a different
understaffed section. OIG recommended the embassy reprogram the position, determine what
other types of vouchers were best suited to outsourcing, and restructure staff and work processes
accordingly.

Inspection of Embassy Panama City, Panama (ISP-I-14-04A, March 2014)
The embassy cost to process a voucher was $30.01, which is higher than the PSU’s charge of
$12. Outsourcing could reduce costs and the expected departure of two embassy voucher
examiners offers an opportunity to make this transition. OIG recommended that the embassy
determine whether outsourcing voucher processing would result in cost savings. OIG also noted
that the average number of vouchers processed by each voucher examiner at the embassy was
only 1,900 per year compared to the worldwide average of 2,224. The most efficient embassy in
the region processed nearly twice as many vouchers per examiner as the embassy.

Inspection of Embassy San Salvador, El Salvador (ISP-I-14-05A, March 2014)
The embassy outsources all travel vouchers to the PSU, but not other types of payments. The
embassy’s cost to process a voucher is $20.60 compared to the PSU charge of $12. OIG
recommended the embassy determine whether outsourcing voucher processing would result in
cost savings. OIG also noted the average number of vouchers processed by each voucher
examiner was 1,908 per year compared to the worldwide average of 2,224 per year. The most
efficient embassy in the region processed nearly twice as many vouchers per examiner as the
embassy.

Inspection of Embassy Moscow and Constituent Posts, Russia (ISP-I-13-48A, September
2013)
The embassy recently implemented a plan to outsource travel voucher processing to the regional
voucher processing center. Processing costs in Moscow are almost three times higher than the
regional center; because of this the embassy was looking into transferring additional voucher
processing to the regional center. No recommendation was issued.

Inspection of Embassy Brasilia and Constituent Posts, Brazil (ISP-I-13-40A, September
2013)
The embassy outsources travel vouchers to the PSU, but not other types of vouchers, which cost
$37.61 to process locally. The regional support units cost $12 per voucher. OIG recommended
that the embassy determine whether it would save more by outsourcing payment vouchers to the
PSU as well.

Inspection of the Regional Support Center Frankfurt, Germany (ISP-I-13-32, June 2013)
Regional Support Center Frankfurt encourages its embassies to reduce voucher processing costs
by utilizing the post support units but does not mandate it. They have had success at some
smaller embassies, but several continue to process vouchers locally at increased costs. No
recommendation was issued.
                                                 15
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Inspection of Embassy Abuja and Consulate General Lagos, Nigeria (ISP-I-13-16A,
February 2013)
OIG estimated the embassy’s average cost to process vouchers was $38.65 per strip code,
compared to $12 per code when outsourced. OIG recommended that the embassy determine
whether outsourcing voucher processing would result in cost savings.

Inspection of Buenos Aires, Argentina (ISP-I-13-15A, February 2013)
The embassy had not included the analysis in its workforce planning as required by the Global
Management Priorities initiative. The embassy could save almost $29,000 annually per voucher
examiner that was outsourced to PSU. OIG also found that the embassy’s financial management
unit was incurring large amounts of overtime and double-time hours, despite having a voucher
workload well below the worldwide average. OIG recommended that the embassy conduct a
cost-benefit analysis of outsourcing voucher processing to PSU and use the appropriate low cost
option.

Inspection of Embassy Santiago, Chile (ISP-I-13-12A, February 2013)
The embassy had not done a cost-benefit analysis to determine whether outsourcing vouchers
would be more cost effective than hiring additional personnel, as required in the Global
Management Priorities. OIG estimated the embassy would save over $50,000 annually with
PSU’s remote voucher processing. OIG recommended that the embassy perform a cost-benefit
analysis of outsourcing voucher processing and use the less expensive option.

Compliance Follow-up Review of Embassy Luxembourg, Luxembourg (ISP-C-13-05,
January 2013)
During the compliance follow-up review, OIG confirmed the embassy implemented the
recommendation. OIG recommended the embassy conduct an analysis of costs and feasibility for
utilizing remote voucher processing.

Review of Voucher Processing (ISP-I-13-01, October 2012)
OIG found that it is more economical to outsource vouchering than to hire and replace local
staff. PSU’s $12 charge per voucher strip code fell well below the ICASS average of $34. OIG
recommended that the Under Secretary for Management institute a policy requiring all overseas
posts to include a cost-benefit analysis of voucher outsourcing to PSU as part of their annual
workforce planning.

Inspection of Ljubljana, Slovenia (ISP-I-12-46A, August 2012)
OIG found no significant problems of areas for further improvement. The embassy already
utilizes the PSU for travel voucher processing; local invoices require translation before they can
be processed, preventing them from being outsourced as well. No recommendation was issued.

Inspection of Embassy Bucharest, Romania (ISP-I-12-45A, August 2012)
The embassy outsourced travel vouchers to PSU; this has resulted in a decrease of ICASS scores
for voucher services in recent years. No recommendation was issued.

Inspection of Embassy Singapore, Singapore (ISP-I-12-36A, June 2012)
The embassy processes approximately 600 fewer vouchers per examiner than the regional
average. The cost of outsourcing the processing of 300–500 travel vouchers was between $3,600

                                       16
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and $6,000 annually, instead of $31,000 to hire another examiner. OIG recommended that the
embassy outsource its travel voucher processing.

Compliance Follow-up Review of Embassy Islamabad and Constituent Posts, Pakistan
(ISP-C-12-28A, May 2012)
In 2010, OIG inspected Embassy Islamabad and recommended that the Bureau of Resource
Management, 24 in coordination with the embassy and the Bureau of South and Central Asian
Affairs, determine the feasibility of outsourcing voucher processing to the PSU. After review, the
bureaus and embassy determined that sending all travel vouchers to Charleston for processing
was appropriate. Additional vouchers will be sent offshore for processing when the E2 system
implementation is complete. OIG considered the issue closed.

Inspection of Embassy Port-au-Prince, Haiti (ISP-I-12-24A, May 2012)
The embassy is utilizing the remote post support system to process most of its vouchers at
favorable costs. OIG endorsed the use of the PSU; no recommendation was issued.

Inspection of Embassy San Jose, Costa Rica (ISP-I-12-23A, May 2012)
A rightsizing review of the embassy was completed in February 2012; OIG agreed with the
results that the embassy seek additional staff reductions by outsourcing voucher processing to the
PSU. OIG estimated utilizing the PSU to process vouchers would cost half of what was currently
being spent to process vouchers at the embassy. OIG recommended that the embassy process all
vouchers through the PSU.

Inspection of Embassy Beirut, Lebanon (ISP-I-12-10A, February 2012)
The embassy began outsourcing voucher processing in 2011 but is not currently sending all its
vouchers to the PSU. OIG recommended the embassy implement a policy to utilize the PSU for
all voucher processing.

Inspection of Embassy Warsaw, Poland (ISP-I-11-64A, September 2011)
OIG noted the embassy was overstaffed and could afford to lose one or two voucher clerks.
Some of the voucher processing had already been transferred to the PSU. OIG recommended that
the embassy eliminate at least one locally employed staff position in the voucher section.

Inspection of Embassy Seoul, Republic of Korea (ISP-I-11-55A, August 2011)
The embassy’s financial unit processes about 10,200 vouchers annually; this number was lower
than the worldwide average, yet costs were nearly three times higher than at regional processing
centers. It was estimated that outsourcing 50 percent of the embassy’s vouchers would save
approximately $110,000 annually. There was some question to the feasibility of this, since many
of the vouchers were submitted in Korean. OIG recommended that the embassy, in coordination
with the Bureau of Resource Management, develop a plan to outsource some of the embassy’s
voucher processing to the PSU.

Inspection of the Bureau of South and Central Asian Affairs (ISP-I-11-47, June 2011)
Bureau management has pushed all its embassies to use the PSU in Charleston for travel voucher
processing and is strongly recommending they outsource the rest of their voucher processing as

24
 In 2012, the Bureau of Resource Management was restructured into the Bureau of Budget and Planning and the
Bureau of the Comptroller and Global Financial Services.
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

well. The regionalization saves money, but it is extremely useful for reducing the number of
employees in danger-pay embassies. No recommendation was issued.

Inspection of Pretoria, South Africa and Constituent Posts (ISP-I-11-42A, June 2011)
The embassy outsourced its travel voucher processing to Bangkok. Travel vouchers were
completed and advances repaid in a timely manner. No recommendation regarding voucher
outsourcing was issued.

Inspection of Embassy New Delhi, India and Constituent Posts (ISP-I-11-39A, June 2011)
The Bureau of South and Central Asian Affairs directed all of its posts to transfer travel voucher
processing to the PSU to reduce the need for voucher examiner positions at the embassy. The
report fails to mention whether program was successful. No recommendations were issued
regarding this issue.

Inspection of the Bureau of Near Eastern Affairs (ISP-I-11-49A, May 2011)
OIG found that the bureau pushed all its embassies to use Charleston’s PSU to process travel
vouchers and was urging posts to outsource the rest of their voucher processing as well.
Although the economies of scale it produces can save money, regionalization can be especially
useful in danger-pay embassies, as it can reduce the number of employees in the country. No
recommendation was issued.

Inspection of Embassy Santo Domingo, Dominican Republic (ISP-I-11-40A, May 2011)
Voucher processors at the post processed an average of 27,032 vouchers in FY 2010, which far
exceeded large posts such as Beijing, Brasilia, London, Rome, and Mexico City. For the PSU to
process 1,200 to 1,500 vouchers annually costs approximately $14,000 to $18,000, as opposed to
$21,000 to hire another voucher processor at the embassy. OIG recommended that the embassy
outsource its travel voucher processing to the post support units.

Inspection of Embassy Luxembourg, Luxembourg (ISP-I-11-17A, January 2011)
Remote voucher processing had been previously recommended by the Regional Support Center,
but no one from the embassy had contacted Charleston to inquire about that function. There was
some question how effective remote processing would be without a fully functioning general
services unit at the embassy. OIG recommended that the embassy determine the cost and
feasibility of using remote voucher processing and potentially initiate it.

Inspection of Embassy Bangkok, Thailand (ISP-I-11-03A, November 2010)
The PSU presently handles some or all of the vouchers for 55 posts, including Baghdad, Pretoria,
Ottawa, and New Delhi. Given that other embassies may realize cost savings by utilizing the
PSU, the PSU has not sufficiently considered long-term goals for further potential development
to provide cost reductions worldwide. OIG recommended that Global Financial Service
Bangkok, along with the Bureau of Resource Management, develop a strategic plan for
expansion of its services.

Inspection of Embassy Beijing, China (ISP-I-10-79A, September 2010)
OIG found that the financial management unit had outsourced all permanent change-of-station
travel voucher processing to the PSU in Bangkok; the outsourcing was adequately meeting the
needs of the embassy. OIG had no recommendations.

                                       18
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Inspection of Embassy Islamabad, Pakistan (ISP-I-10-64, June 2010)
OIG found that the embassy’s permanent change-of-station vouchers were processed by the PSU
in Bangkok and that the embassy was considering other services to outsource. OIG
recommended that the embassy, along with the Bureau of Resource Management, review the
feasibility of outsourcing voucher processing and other invoice tracking.

Inspection of Embassy Rome, Italy, Its Constituent Posts, and the Republic of San Marino
(ISP-I-10-59A, June 2010)
OIG found that the financial unit often exceeded performance standards. The unit was
outsourcing some of its travel vouchers to Charleston and Bangkok. OIG reported the
arrangement was adequate for the embassy’s needs. No recommendation was issued.

Inspection of Tri-Embassy Coordination Brussels, Belgium (ISP-I-10-15, December 2009)
During a period where financial management had five vacancies, they outsourced some of their
travel voucher processing to Charleston and Bangkok with varying degrees of success. Initially
unsatisfactory, the service is now adequate and vouchers are processed in 10 days.

Inspection of Embassy Baghdad, Iraq (ISP-I-09-39A, July 2009)
The embassy will continue to rely on the PSUs in Charleston and Bangkok for voucher
processing, budgeting, accounting, and obligating. OIG recommended that the embassy conduct
a review to determine whether additional functions could be outsourced to reduce the number of
personnel residents in Baghdad.

Inspection of Embassy Paramaribo, Suriname (ISP-I-09-38A, May 2009)
OIG found the embassy outsourced its guard voucher processing to Charleston PSU. The
arrangement worked well for the embassy and only costs $880 annually to process 80 strip
codes. The embassy was in the process of conducting a cost-benefits analysis on outsourcing all
voucher processing.

Inspection of Embassy Mexico City, Mexico (ISP-I-09-21A, April 2009)
The financial unit experienced a high turnover in locally employed staff, causing some
disruptions and delays in processing vouchers. The unit was in the process of bringing on
additional staff. Embassy Mexico City had previously tried outsourcing some of its backlog of
vouchers to Charleston with mixed results. OIG recommended that the embassy, in coordination
with the Bureau of Resource Management, utilize the PSU for routine voucher processing for the
embassy and all consulates.

Inspection of Embassy Tripoli, Libya (ISP-I-09-01A, December 2008)
The embassy pays $68,000 annually for PSU services from both Charleston and Bangkok:
Bangkok handles obligations and voucher processing; Charleston maintains responsibility for
overall operations.

Inspection of Embassy Tokyo, Japan and Constituent Posts (ISP-I-08-39A, June 2008)
The average salary for nine full-time staff employed in the voucher processing unit was $80,000,
compared with $16,700 annually for voucher examiners in Bangkok. Outsourcing voucher
processing would result in considerable savings for the Department. OIG recommended that the
embassy, in coordination with the Bureau of Resource Management Global Financial Services,
initiate a phased transfer of voucher processing to the PSU in Bangkok.
                                      19
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Appendix B: Voucher Processing Costs and Post Support
Unit Use

                    Remote Voucher Processing by Bureau
              Regional Bureau            Average        Percentage of
                                      Embassy Cost        Vouchers
                                                  25
                                      per Voucher        Processed
                                                         Remotely 26

     African Affairs                                     $25.34               11%
     East Asian and Pacific                              $22.53               11%
     European and Eurasian Affairs                       $33.88               15%
     Near Eastern Affairs                                $31.48               22%
     South and Central Asian Affairs                     $12.68               20%
     Western Hemisphere Affairs                          $23.43                9%
     Average                                             $26.02               13%




25
   Bureau costs per voucher are taken from the Department’s ICASS Global Database Report #5 – Unit Cost by Post
2013 Final. This database is used to charge other agencies for vouchering services.
26
   The OIG team calculated the percentage of PSU use by dividing the number of vouchers processed by PSU in
2013 by the total number of vouchers processed in 2013, according to the ICASS Service Center. Although the total
vouchers processed does include cash vouchers that cannot be processed by PSU, cash payments and vouchers are
discouraged at high-cost embassies and should represent less than 1 percent of vouchers.

                                           20
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Appendix C: Estimated Savings Through 50-Percent Post
Support Unit Use at the Highest Cost Embassies
                              Estimated Savings Through 50-Percent PSU Use 27

                Embassy           2013           Proposed Increase in              Savings        Annual
                               Percentage        PSU use     PSU-                    per          Savings
                               of PSU use       Percentage Processed               Voucher
                                                           Vouchers
          1      Tokyo                   5%           50%       9,719                 $42.41       $412,182
          2     Brasilia                 8%           50%     10,577                  $32.51       $343,736
          3       Paris                 14%           50%       5,407                 $59.40       $321,146
          4     Brussels                11%           50%       8,647                 $34.46       $297,958
          5      Berlin                 23%           50%     15,191                  $19.33       $293,632
          6      Rome                    0%           50%       8,440                 $33.78       $285,103
          7     London                   5%           50%       9,899                 $25.64       $253,797
          8      Beijing                11%           50%     19,994                  $12.42       $248,322
          9      Abuja                   0%           50%       6,580                 $37.40       $246,073
         10     Moscow                   4%           50%     10,448                  $20.81       $217,422
         11     Pretoria                14%           50%     11,649                  $18.23       $212,352
         12      Athens                  5%           50%       6,297                 $28.83       $181,528
         13     Canberra                15%           50%       7,964                 $22.82       $177,756
         14      Ottawa                  7%           50%       8,578                 $17.75       $152,253
         15     Tel Aviv                10%           50%     10,584                  $12.89       $136,421
         16     Santiago                 3%           50%       4,999                 $23.81       $119,026
         17     Nairobi                  0%           50%     14,503                   $8.19       $118,779
         18      La Paz                  0%           50%       7,253                 $15.81       $114,662
         19     Caracas                  0%           50%       5,051                 $19.96       $100,817
         20     Buenos                   4%           50%       5,928                 $15.38        $91,164
                  Aires

                  Total                 13%                                                      $4,324,137




27
  Savings are calculated by subtracting the ICASS cost per voucher from the PSU charge of $12, then multiplying
that by the change in workload that would result in 50-percent PSU use. When embassies use the PSU, a minimal
amount of vouchering work is still required at the embassy. Specifically, someone needs to make sure supporting
documentation is available electronically. For embassies that have good internal controls and save voucher
documents electronically, this task requires very little effort and can be performed by a very low graded employee.
The OIG team selected 50 percent as a PSU-use target to allow the PSU time to increase its capacity and also to
ensure that missions would not have to send vouchers that are more difficult to process remotely to the PSU.
                                            21
                                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


Appendix D: Voucher Processing Costs and Post Support
Unit Adoption Rates for All Large and Medium-Sized
Embassies
          Embassy      Percentage    Cost per       Total Voucher
                       Processed     Voucher       Processing Costs
                        Remotely                       in 2013
                                    (in dollars)     (in dollars)
      Berlin                 23%           31.33          1,753,634
      Paris                  23%           71.40          1,432,213
      Beijing                11%           24.42          1,243,503
      Tokyo                   5%           54.41          1,178,956
      Brasilia                8%           44.50          1,121,979
      Brussels               11%           46.46          1,021,051
      Pretoria               14%           30.23            984,379
      London                  5%           37.64            823,000
      Canberra               15%           34.32            780,986
      Rome                    0%           45.78            772,766
      Moscow                  4%           32.81            746,362
      Mexico City             8%           10.53            718,020
      Tel Aviv               10%           24.89            655,130
      Abuja                   0%           49.40            650,055
      Bogota                 16%           19.35            607,040
      Ottawa                  7%           29.75            593,075
      Nairobi                 0%           20.19            585,631
      Athens                  5%           40.83            572,069
      Vienna                 67%           34.08            566,307
      Cairo                  35%           41.24            552,245
      New Delhi              13%           13.04            526,141
      Bangkok                 0%           11.63            458,990
      Riyadh                 33%           33.93            427,111
      La Paz                  0%           27.81            403,384
      Ankara                 12%           20.10            397,578
      Warsaw                 20%           24.04            387,837
      Hong Kong              31%           41.65            382,430
      Dakar                  42%           19.11            378,053
      Santiago                3%           35.81            377,151
      Lima                   15%           19.19            372,653
      Bucharest              23%           34.89            363,693
      Madrid                 32%           37.62            360,738

                                22
                    SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED

Quito                5%      24.21        358,526
Rabat               68%      32.57        357,912
Buenos Aires         4%      27.38        354,379
Jakarta              5%      12.25        333,874
Caracas              0%      31.96        322,860
Abu Dhabi           16%      29.41        310,393
Seoul               26%      27.87        309,039
Manila               0%       8.97        290,224
Port-Au-Prince      51%      38.14        284,143
Amman                8%      33.49        283,031
Guatemala City      20%      29.29        277,376
Islamabad           36%      10.92        271,875
Panama               6%      25.39        267,814
Singapore           59%      32.97        267,683
Santo Domingo       10%      11.98        263,967
Kuala Lumpur         8%      33.77        255,200
Kuwait              12%      57.59        247,119
San Salvador         6%      23.00        243,616
San Jose            21%      38.11        239,685
Budapest             2%      15.36        238,464
Accra                0%      17.30        232,062
Nassau               0%      44.43        228,192
Kinshasa             6%      30.79        226,645
Abidjan              0%      31.75        204,438
Hanoi               14%      12.21        199,939
Dar Es Salaam       13%      21.96        196,278
Tegucigalpa          1%      23.32        196,051
Bern                 0%      67.37        195,912
Sarajevo             0%      15.26        184,677
Kyiv                 0%      18.01        183,781
Tunis                3%      20.30        181,259
Astana              13%      14.58        177,584
Helsinki             6%      23.10        174,890
Managua             18%      22.19        163,318
Kampala             25%      17.27        161,405
Addis Ababa          0%      14.93        156,601
Belgrade             0%      14.12        145,070
Yaounde             15%      26.39        139,128
Bamako               6%      24.79        136,295
Phnom Penh           8%      10.79        135,285
Muscat               8%      29.83        135,160
                         23
             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

             Vientiane                        44%              23.72                135,133
             Conakry                           0%              41.77                 89,973
             Havana                            0%              16.51                 70,861
             Colombo                          16%              14.32                 55,877

             Voucher                                    $26.02 28          $32,084,156
             Processing Costs
             Average PSU Use             13%




28
  The average cost per voucher includes costs associated with those vouchers processed by PSU. The OIG team did
not attempt to separate out PSU costs from embassy-based costs because the percentage of PSU use was low—13
percent—and because it is unclear whether embassies using the PSU eliminated positions or reduced the amount of
time devoted to that function.
                                           24
                               SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
